WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8100 |

THOMAS MCGILL, FLA DEPT OF CORRECTIONS
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):
|Florida Department of Corrections

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: PF henticy 4B our = |

Date: 6/9/21

(Type or print) Name BEVERLY B. BREWSTER |

© wr. © Ms. © Mrs. O Miss
Firm FLORIDA DEPT. OF CORRECTIONS _ - |
Address 501 S. Calhoun St. _ |
City & State Tallahassee, FL / 7 Zip 32399 /
Phone |850-717-3614 Email Beverly.Brewster@fdc.myflorida.com |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the

name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
[Thomas McGill, DC # 982800
Liberty Correctional Institution

(11064 NW Dempsey Barron Rd.
Bristol, FL 32321-9711

cc:
